X.

In Supreme Court United States
No. 20Cheryl Wolf et al Petitioners v. United States Respondent
Certificate of Service

I Raymond J Fallica swear under the penalty of perjury
Certificate of service completed Respondents on Brief Mandamus
issued Supreme Court of U S, appeal D.C. Circuit Court of Appeals
Case 19-5291 original proceeding; three copies brief placed into sealed
envelope mailed to the Attorney for Respondent United States address:
DOJ Solicitor General of the U S , Room 5616, 950 Pennsylvania
Ave., NW Washington, D.C. 20530-0001: Phone. (202) 514-2203
Mailed by U S Postal Service or by courier, third party carrier, mailed
May 20, 2020

Date May 20, 2020

a
Raymond J Fallica Petitioner Pro Se
6 Ethel Court
Wheatley Heights N Y 11798
Tel 631 374-4649

RECEIVED
MAY 2 7 2020
supreme"COUR^mI*

